<html>
<title> - FULFILLING THE PROMISE OF PEACE: HUMAN RIGHTS, PEACE AND RECONCILIATION IN NORTHERN IRELAND AND BOSNIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                    FULFILLING THE PROMISE OF PEACE:
                 HUMAN RIGHTS, PEACE AND RECONCILIATION
                     IN NORTHERN IRELAND AND BOSNIA

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2010

                               __________

                           Serial No. 111-127

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
58-307PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
THEODORE E. DEUTCH, Florida








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kurt D. Volker, Senior Fellow and Managing Director 
  of the Center on Transatlantic Relations, Johns Hopkins 
  University's School of Advanced International Studies..........     7
Mr. Daniel P. Serwer, Vice President, Centers of Innovation, U.S. 
  Institute of Peace.............................................    16
Ms. Ivana Howard, Program Officer Central & Eastern Europe, 
  National Endowment for Democracy...............................    22
Ms. Aideen Gilmore, Deputy Director, Committee on the 
  Administration of Justice......................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     3
The Honorable Kurt D. Volker: Prepared statement.................    10
Mr. Daniel P. Serwer: Prepared statement.........................    18
Ms. Ivana Howard: Prepared statement.............................    25
Ms. Aideen Gilmore: Prepared statement...........................    36

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Russ Carnahan: Material submitted for the record...    72

 
FULFILLING THE PROMISE OF PEACE: HUMAN RIGHTS, PEACE AND RECONCILIATION 
                     IN NORTHERN IRELAND AND BOSNIA

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 2010

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2172, Rayburn House Office Building, Hon. Russ Carnahan 
(chairman of the subcommittee) presiding.
    Mr. Carnahan. Good morning. I want to call to order the 
Subcommittee on International Organizations, Human Rights and 
Oversight, for the committee hearing this morning, ``Fulfilling 
the Promise of Peace: Human Rights, Peace and Reconciliation in 
Northern Ireland and Bosnia.''
    The chance to live in peace, free from violence, 
discrimination and oppression, intimidation and fear, is a 
fundamental human right. As a global leader, defending and 
supporting peace and human rights is an historic priority for 
the United States and reflects our deep belief in equality and 
rule of law.
    As Members of Congress we represent various communities, 
often hailing from diverse backgrounds. We understand keenly 
the importance of the U.S. role in promoting peace abroad. We 
also understand the solemn responsibility we all have to our 
citizens to help build a secure world and uphold our core 
values.
    Today the U.S. is deeply involved in helping to advance 
peace and reconciliation efforts in Iraq and Afghanistan where 
brave Americans, and our allies, are fighting insurgents and 
working with the local people to stabilize those countries. And 
this week, Secretary Hillary Clinton is meeting again with 
Israeli and Palestinian leaders in order to help negotiate an 
agreement that would lay the framework for a sustainable peace.
    In many other parts of the world, the U.S., along with our 
international partners, have engaged in many types of valuable 
peace-building, peacekeeping, and humanitarian work. This makes 
us stronger and safer at home as well.
    Back in St. Louis, my home city, neighbors look out for 
each other, and this strengthens our community. The U.S. also 
needs strong, safe neighbors where peace is stable and lasting 
and human rights are respected without question, so that we can 
focus instead on growing jobs and rebuilding our economies.
    Where the current critical efforts in which we are engaged 
weigh heavily on all of us in Congress, to deliver effective 
results we cannot and must not forget the communities we made 
to help bring about a lasting peace in protection of human 
rights in Northern Ireland and Bosnia. Both of these countries 
have come a long, long way from their darkest days of conflict, 
and in both the U.S. has played a major role in advancing 
peace-building and reconciliation.
    In Bosnia the U.S. was instrumental in brokering the Dayton 
Peace Accord in 1995 and has consistently been providing 
diplomatic financial and military resources toward the peace 
process. Aid to Bosnia since 1993 totals over $2 billion aimed 
at institution building, policing to fight organized crime and 
terrorism, an independent judiciary, and reconciliation efforts 
among other key programs.
    However, in the last 15 years Bosnia has outgrown the 
Dayton Accord that was intended to and effectively did 
establish a structure to bring about an end to the war. The 
task ahead for Bosnia is to reform its Constitution and 
government institutions and engage in a more serious nation-
building effort in order to take its rightful place among 
democratic nations in key international and regional 
organizations such as the EU and NATO.
    With elections coming up in Bosnia in October, there is a 
real opportunity for the Bosnian people to take on this 
challenge. The role of the international community, and of the 
U.S. in particular, must evolve and mature and it must be the 
Bosnians themselves who lead the way. But the U.S. in 
coordination with the EU can continue to play an important role 
in supporting them.
    In Northern Ireland the Clinton, Bush, and now Obama 
administrations have been instrumental in procuring and then 
supporting the 1988 Good Friday Peace Agreement. Earlier this 
year, Secretary Clinton helped advance the agreement on 
devolution of policing and justice powers. In addition, the 
U.S. has provided approximately $500 million in aid to Northern 
Ireland since 1986, through the International Fund for Ireland, 
to support dialogue and reconciliation and social and economic 
development in the areas most affected by sectarian conflict.
    The nature of the relationship between the U.S. and 
Northern Ireland is evolving into one that is more focused on 
continuing to promote peace through economic development. 
Secretary Clinton's appointment in 2009 of the first U.S. 
Special Economic Envoy to Northern Ireland reflects this 
principle. And as we know, strong markets abroad mean more 
opportunities to put American workers to work at home producing 
the quality goods and services people want.
    An integral part of this remains to be vigilant in 
supporting ongoing peace and reconciliation efforts in Northern 
Ireland, especially efforts aimed at building confidence within 
and among the communities and respect for Northern Ireland's 
unique history.
    Growing up in Missouri I was always taught the value of my 
word. As Americans, we believe in seeing our commitments 
through. And our troops in the field, past and present, are a 
best example of this belief and commitment.
    We have committed money, resources, and time over many 
years in order to uphold these core values of peace, freedom, 
equality, democracy and human rights. We have a responsibility 
to our friends and our own citizens to ensure these efforts 
advance and endure. We must continue to help fulfill the 
promise of peace.
    I am very eager to hear from our witnesses today. I 
appreciate you being here. And I now want to recognize our 
ranking member, Representative Rohrabacher from California.
    [The prepared statement of Chairman Carnahan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, for 
holding this hearing in which I expect to learn a great deal 
from the witnesses, and I am very grateful for you being here 
to share your knowledge with us. I am going to have to admit 
that my knowledge base on the Bosnia question as well as the 
Northern Ireland question is rather dated, and I am anxious to 
have you bring me up to date.
    Let me just note in general that I think the United States 
can be very proud of the role that we have played in my 
lifetime as people that are committed to peace and to freedom 
on this planet, and that we have played an active role in 
trying to attain those goals, those goals that come together, 
peace and freedom.
    It has been at great cost to the American people. The 
American people have spent billions upon billions of dollars 
promoting peace and freedom for other people in the world. We 
have also sacrificed tens of thousands of American lives for 
peace and freedom throughout the world.
    There was an old saying that the fastest drying liquid 
known to all of mankind are tears of gratitude. And quite 
often, I feel that the sacrifice made by our people is not 
deeply appreciated, even by our own people, much less by some 
of the people overseas.
    I personally go in my district to the Los Alamitos Reserve 
Center where many of the Reserve and National Guard units that 
go overseas to Iraq and Afghanistan leave from that location, 
and I always try to see them off and I always try to welcome 
them home. And I know the sacrifice those Americans are making. 
They have given everything. Their families are separated. I 
have three little kids at home and I see these people leaving 
their families for a year, and their little kids are coming to 
hug them good-bye and they don't know if their daddy is coming 
home or mommy is coming home in this case. So we need to be 
very respectful and proud of what America does to help bring 
freedom and peace in this world.
    The question is, is where will we commit and how much money 
can we commit to in the future? I believe that our efforts 
throughout the world have drained our resources and that we are 
now vulnerable. And we have got to prioritize what we are going 
to do overseas or we will not be able to do anything overseas. 
It is the old adage that the person of the country that tries 
to do everything for everybody ends up not being able to do 
anything for anybody.
    In this case, we must look to our allies to play a much 
more significant role, especially in European areas, in that 
region of the world. I would have expected that in Bosnia and 
Northern Ireland and in Kosovo that the European Union and 
NATO, the European Union basically taking the lead, would have 
been able to take the lead in these areas. And I will be very 
interested in finding out how much lead our European allies 
took in these areas.
    So, Mr. Chairman, thank you for calling this hearing. I 
plan to listen to the witnesses and upgrade my data, my mental 
database on this, and maybe learn some lessons about making the 
decisions that will help us in the decisions we have to make in 
the months and the years ahead. Thank you.
    Mr. Carnahan. I want to thank my friend, the ranking 
member. And now I will recognize Congressman Ellison from 
Michigan for 5 minutes.
    Mr. Ellison. That is Minnesota, but close enough.
    Mr. Carnahan. Ouch.
    Mr. Ellison. No problem.
    Mr. Carnahan. So noted.
    Mr. Rohrabacher. Are you sure you don't come from 
California?
    Mr. Ellison. Anyway, Mr. Chairman, I want to thank you for 
this excellent hearing. It is very important that we be 
focusing on Northern Ireland and Bosnia at this time. Both our 
examples for the United States was able to play a supportive 
role in establishing peace and justice, although in both cases 
the people of Northern Ireland and Bosnia were the ones who 
really carried the heavy lifting for their own people. But more 
must and should be done to build on progress.
    And I look forward to hearing from the panel and the 
witnesses to help bring forth a better quality of life for the 
people of Northern Ireland and Bosnia. And I do have a number 
of questions, and I look forward to hearing the testimony of 
our witnesses.
    Mr. Carnahan. Thank you. I am going to run through some 
quick introductions. First, I want to start to my left, 
starting with Ambassador Kurt Volker. Ambassador Volker serves 
as the senior fellow and managing director of the Center of 
Transatlantic Relations at Johns Hopkins University's School of 
Advanced International Studies. He also serves as senior 
advisor at the Atlantic Council of the United States and is a 
member of its Strategic Advisory Group. Previously Ambassador 
Volker served as Ambassador and U.S. Permanent Representative 
on the Council of NATO. Prior to NATO, Ambassador Volker worked 
as principal Deputy Assistant Secretary for European and 
Eurasian affairs. Ambassador Volker earned his bachelor's 
degree from Temple University, his master's in international 
relations from the Elliott School of International Affairs at 
George Washington University.
    Next we will hear from Daniel Serwer. He is the vice 
president of the Center of Innovation at the U.S. Institute of 
Peace. At the Institute he oversees work in rule of law, 
religion and peace-making in sustainable economies. He has 
worked on preventing interethnic sectarian conflict in Iraq as 
well as facilitating talks between Serbs and Albanians in the 
Balkans. He has also served as a U.S. Special Envoy and 
coordinator for the Bosnian Federation. During this time, Mr. 
Serwer worked with Croats and Muslims to negotiate the first 
agreements reached at the Dayton peace talks.
    Next we will hear from Ms. Ivana Howard. Ms. Howard serves 
as the program officer for Central and Eastern Europe at the 
National Endowment for Democracy. Through this role Ms. Howard 
manages the NED democracy assistance to six Balkan countries. 
Previously she has trained U.S. soldiers serving in the Balkans 
in language, politics, history and religion. Ms. Howard earned 
a master's degree in public administration from Bowie State 
University in Germany; earned a master's in democracy and human 
rights in southeastern Europe from the University of Sarajevo 
and University of Bologna.
    And finally we will hear from Ms. Aideen Gilmore. She is 
the Deputy Director of the Committee on the Administration of 
Justice, the CAJ, which is an NGO that works to ensure high 
standards in the administration of justice in Northern Ireland, 
particularly relating to international human rights law. Ms. 
Gilmore also worked to establish and now sits on the Board of 
Management of the Human Rights Consortium. The consortium is a 
coalition of over 150 civil society organizations who are 
working for a strong and inclusive Bill of Rights for Northern 
Ireland. Ms. Gilmore earned a bachelor's degree and master's in 
administrative and legal studies from the University of Ulster 
at Jordanstown.
    Welcome to all of you. Thank you for being here today.
    I want to start with Ambassador Volker who has been kind 
enough to come today, even though he is squeezing us in before 
another appointment, so we are going to let him go first. 
Ambassador, we are going to recognize you for 5 minutes.

 STATEMENT OF THE HONORABLE KURT D. VOLKER, SENIOR FELLOW AND 
  MANAGING DIRECTOR OF THE CENTER ON TRANSATLANTIC RELATIONS, 
  JOHNS HOPKINS UNIVERSITY'S SCHOOL OF ADVANCED INTERNATIONAL 
                            STUDIES

    Mr. Volker. Thank you, Chairman Carnahan, Ranking Member 
Rohrabacher, distinguished members. Thank you for giving me 
this opportunity to testify today. I found the topic of this 
hearing very interesting because I had the chance in my career 
to work on both Northern Ireland and Bosnia, and I have never 
taken the time really to look at the lessons learned, and this 
is a good exercise.
    As a diplomat, both as Ambassador of NATO and as the 
Principal Deputy in European Affairs at the State Department, I 
worked on Northern Ireland and also on Bosnia. But actually I 
did my first tour working on Bosnia in 1993 when I was a 
special assistant to the Bosnia peace negotiator for the United 
States. So I followed these issues for some time.
    In the case of Northern Ireland, we see a successful peace 
agreement, a functioning executive and a promising future, 
though of course challenges remain. But in Bosnia and 
Herzegovina, although violence stopped nearly 15 years ago, we 
continue to see great challenges in governance and 
reconciliation. And in Bosnia and Herzegovina today, the future 
remains cloudy. And with these dramatically different results I 
think it is worth looking at some of the lessons learned.
    I am going to outline very quickly what I see as ten of the 
key similarities or differences between the two, so that we can 
see whether there are any lessons that we might apply in our 
work with Bosnia today. First and most obviously is the scale 
of the conflict itself. While the conflict in Northern Ireland 
was indeed terrible, it was not on the same scale as an all-out 
war in Bosnia in terms of numbers killed, in terms of the 
brutality, in terms of displaced persons. And that makes it 
harder in Bosnia to build reconciliation after that scale of 
conflict.
    Second, in Northern Ireland there was a palpable public 
fatigue with the divisions and with separatism in the province, 
and there emerged a public demand for change and 
reconciliation. This is only partially true in Bosnia today. 
And I think that there still remains a great deal of desire for 
separatism in parts of Bosnia.
    Third, Northern Ireland enjoyed a sustained period of 
economic improvement leading up to and extending beyond the 
Good Friday agreement. And I think that was critical because 
that gave the people of Northern Ireland a stake in a 
prosperous functioning territory. In Bosnia we haven't ever 
seen that level of economic development, and I think that is 
held back. So when we look to the future, I think an increased 
focus on what it will take to improve the economy, jobs, 
entrepreneurship is an important factor.
    Fourth is the role of the indigenous NGO community. In 
Northern Ireland, diverse groups ranging from educators to 
businessmen to human rights activists to social workers to 
former police officers all came together across religious lines 
to expose past abuses, build cooperation, and develop the 
structures of a more integrated society. While the NGO 
community in Bosnia-Herzegovina has grown and carries out 
vitally important work, it has yet to achieve a sufficiently 
broad-based impact as we had seen in Northern Ireland. And 
this, therefore, is another area where we can focus in helping 
to sustain and build these indigenous NGOs.
    Fifth is the positive political support and the 
facilitating role played by the two key governments in London 
and in Dublin. They helped create and advance a functioning 
Executive in Northern Ireland. By contrast, the war in Bosnia-
Herzegovina have largely been caused by the actions of 
neighboring states. And while their later support for the peace 
process grew, reconciliation and unified governance has been 
slow to grow, with only tepid support from the neighbors which 
has been growing over time. It is better today, especially when 
you look at the government in Serbia and its policies, but it 
has not had that emphasis and sustaining support as we had in 
the U.K.--I am sorry, in Northern Ireland.
    Sixth is the quality of the governing agreements, the Good 
Friday agreement, and then the power-sharing that followed 
functions as executive power. The Dayton Accords were essential 
to stop the violence, and the constitutional arrangements that 
followed were necessary, but they have not proved to be 
effective as a governing mechanism.
    Seventh, the engagement of the U.S. in the international 
community was more consistent and sustained in Northern 
Ireland, and had a lot of ups and downs in Bosnia.
    Eighth, the role of the International Commission on 
Decommissioning in Northern Ireland was critical in giving the 
public confidence that the political institutions would work. 
And we have never quite put together a monopoly of force that 
is bringing the arms together, a single defense establishment, 
single leadership over the police establishment in Bosnia.
    Ninth, the international financial assistance provided was 
more effective in Northern Ireland, and that is largely because 
the conditions were more ripe for that to be used well.
    And then, tenth, I want to say specifically about the role 
of the United States. As both our chairman and the ranking 
member mentioned, the United States role was consistent, 
sustained, and important in Northern Ireland. In Bosnia. I 
would argue it has had its ups and downs. We largely stayed out 
in the early days; then we came in in a big way; then we pulled 
back again. We have tried to hand over to the European Union, 
and I think that a more consistent role of the United States is 
important.
    And to address two of the issues raised by the ranking 
member, on the one hand I believe there remains a high degree 
of appreciation for the role of the United States in both 
Bosnia and in Northern Ireland. So I hear what you say about 
appreciating the sacrifices, and I believe there they do.
    The second is that the European Union and the United States 
working together has been the best model in Bosnia. The 
European Union alone has never been able to fully replicate 
what we have been able to do together, so I think the continued 
U.S. role is critical.
    I see I am out of time. So Mr. Chairman, Ranking Member, I 
am delighted to answer any questions that follow, but I believe 
that points to some of the areas where we can change and focus 
in the future in Bosnia.
    [The prepared statement of Mr. Volker follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you, Ambassador, for your insights, 
unique because of your time spent on both of these areas.
    Next I want to turn to Mr. Daniel Serwer.

 STATEMENT OF MR. DANIEL P. SERWER, VICE PRESIDENT, CENTERS OF 
              INNOVATION, U.S. INSTITUTE OF PEACE

    Mr. Serwer. Thank you, Mr. Chairman, Mr. Carnahan, Mr. 
Rohrabacher, Mr. Ellison. I enormously appreciate your 
attention to this issue. The ideals you set forward in your 
opening remarks are ones I very strongly share. At the same 
time, I have to underline that I share Mr. Rohrabacher's view 
that we need to identify clearly what it is the U.S. can do in 
this situation and not commit to too much. It is an economy-of-
effort approach that I think is simply a necessity today.
    I am going to propose three things that really count today 
on which the U.S. should focus: The Constitution in Bosnia, the 
educational system, and the High Representative are the three 
issues I want to discuss.
    Constitutional reform, which I have advocated for a long 
time, is going to have to start with a small package, not a big 
comprehensive package. There are only two things that I think 
need to be done right away, even before the process of 
accession to the EU begins. One is to eliminate the 
discriminatory provisions in accordance with the decision of 
the European Court on Human Rights. All Bosnian parties seem 
agreed on this. We need to press them to get it done.
    The second is much more controversial. Bosnia needs a 
strong EU clause; that is, a clause in its Constitution that 
makes the government in Sarajevo responsible for negotiating EU 
membership. That EU clause in my view should also include a 
provision that there would be no entity veto for legislation 
required for EU accession. What does that mean? It means that 
neither entity, neither Federation nor Republika Srspka, would 
be able to exercise a provision of the Constitution that 
currently allows them to block legislation, and they have done 
it many, many times. But for legislation required for EU 
accession, I think they should give up that privilege.
    I want to emphasize that I agree with Ambassador Volker on 
the question of civil society in Bosnia. It needs more 
``oomph,'' if I can use that technical term. My proposition is 
that immediately after the Bosnian elections in early October, 
the EU and U.S. should be financing a broad discussion of 
constitutional reform in Bosnia from the grass roots up, 
instead of trying to get constitutional reform only through the 
leadership, which is what we have tried several times in the 
past.
    On educational reform I think we need to reactivate the 
OSCE effort to end separate but equal education in Bosnia. All 
Bosnian schools should be appropriate for children of all 
groups. We know from our own history that you can't have people 
taught in ``separate but equal'' schools, and you can't have 
them taught things that encourage hatred of others.
    Let me turn finally to the question of the High 
Representative. I fear that the High Representative today, who 
is the ultimate authority for implementation of the Dayton 
agreements, cannot use the more or less dictatorial powers he 
has had to prevent serious Dayton violations. In particular, I 
regard the threat of holding referenda on any subject as a 
serious threat to the Dayton peace agreements.
    The Europeans have been talking about creating a super EU 
Special Representative. I think we should consider seriously 
going along with that proposition, provided the EU really makes 
this a powerful position with real tools of imposition at its 
disposal and the so-called Bonn powers, the dictatorial powers 
of the High Representative, in reserve in case they need to be 
used. They should be kept until the agreed conditions are in 
place. This kind of Super EU Representative would I think 
ensure European leadership, but should also incorporate 
American support.
    My proposition is that we help to staff the EU Special 
Representative as we have the International Civilian Office in 
Kosovo. There is nothing unusual about Americans working in 
European Union operations. We should do it again in Bosnia. I 
would include in that a strong American deputy to the EU 
Special Representative.
    Just to summarize quickly, the Dayton Constitution needs a 
few reforms right away, more later on. The education system 
needs to eliminate separate but equal. And the international 
community needs to fix its own structure so they are more 
unified, European-led, and strongly American-supported. Thank 
you.
    [The prepared statement of Mr. Serwer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    And now I want to turn to Ms. Ivana Howard, and will 
recognize you for 5 minutes.

   STATEMENT OF MS. IVANA HOWARD, PROGRAM OFFICER CENTRAL & 
        EASTERN EUROPE, NATIONAL ENDOWMENT FOR DEMOCRACY

    Ms. Howard. Thank you Chairman Carnahan, Ranking Member 
Rohrabacher, and Mr. Ellison. I welcome the opportunity to be 
here today and speak to you about human rights, the peace 
process and reconciliation efforts in Bosnia and Herzegovina. 
And on behalf of the National Endowment for Democracy I would 
like to thank you for a continued support and commitment to the 
Balkans.
    I am very humbled to be in the company of these two 
gentlemen who have committed so much of their time and their 
life to Bosnia. I would just like to note that I would provide 
a brief summary of my remarks to the subcommittee and would 
hope that my longer written statement can be submitted for the 
record.
    It is estimated that over $15 billion in international aid 
has been spent in Bosnia over the last 15 years. Mr. Carnahan 
has hinted to the amount that the U.S. has spent, and 
approximately $1.5 billion of that has come from the Support 
for East European Democracy fund approved by U.S. Congress. And 
NED has also been a beneficiary of these funds.
    As we pause to reflect on the international engagement 
since the signing of the Dayton Peace Accords, it is without a 
doubt that the significant investment has produced notable 
results. And I would just like to point out a few because I 
think it is very important for the sake of appreciation as 
well.
    To date, Bosnia has really come a long way. And it remains, 
first of all and very importantly, the only postconflict 
country in modern history in which international intervention 
has secured lasting peace without a major incident of violence 
since 1995. Substantial state-building reforms were also 
achieved as was small but consistent progress in electoral 
processes, civil society, governance and judicial framework. 
Most notably, defense reform succeeded in unifying three 
completely separate and previously warring armies.
    But the most significant recognition of progress achieved 
over the last 15 years was the country's election as a 
nonpermanent seat in the U.N. Security Council starting in 
January 2010.
    Here I would just like to note as a Bosnian American, there 
is great appreciation in the Bosnian community for all the 
efforts and the resources that the United States has put into 
Bosnia. I think I can speak on behalf of my fellow Bosnians 
when I say that, especially because I was in Bosnia in the 
early days of our action, following the signing of the Dayton 
Peace Accords, supporting the NATO peacekeeping mission as a 
freshly out-of-high-school interpreter.
    However, of course, concerns remain and a multitude of 
challenges are still here to fulfilling the promise of peace 
that was made with the signing of the Dayton Peace Accords. I 
am only going to emphasize a few because my colleagues have 
already spoken about the challenge of constitutional reform and 
the continued violation of human rights, or actually minority 
rights, in the Constitution.
    I would like to focus on reconciliation. Punishing those 
guilty of war crimes has been an essential element in 
consolidating peace in Bosnia. The work of the International 
Criminal Tribunal for the former Yugoslavia, known as the ICTY, 
has made a major contribution to rule of law, democratization 
and reconciliation. The ICTY has provided justice for war 
crimes victims and lent them a voice for the world to hear.
    That being said, there have been major shortcomings in the 
process of transitional justice. And above all, these include 
Serbia's failure to arrest Ratko Mladic, a mastermind and chief 
executive of the Srebrenica genocide. Continued impunity from 
Mladic is a major impediment to the international community's 
efforts for reconciliation in Bosnia.
    In addition, the limited capacity of the ICTY and the 
national courts to prosecute war criminals warrants alternative 
approaches to satisfying truth and justice for all victims. One 
such approach is offered by the Coalition for RECOM, a regional 
collision of NGOs, victims, associations and individuals, which 
advocates for the establishment of an official independent 
interstate commission which would investigate and disclose 
facts about war crimes and other serious violation of human 
rights, including the fate of the 11,000 persons still missing 
in Bosnia.
    I would just like to note that two Presidents in the 
region, that of Croatia and of Serbia, have endorsed this 
initiative, and I do hope others are soon to follow. And to the 
extent that you can, I would like to encourage you to encourage 
other leaders to endorse the process.
    I am not going to elaborate on the issues that have already 
been mentioned, but I will just note why the constitutional 
reform is important for two reasons. The Constitution, as it 
currently is, not only denies equal representation to national 
minorities, but it also discourages hundreds of thousands of 
refugees and displaced persons from returning to their original 
place of residence where they would now be a minority.
    In addition, the system as it is created, which rewards 
political extremism, has not only helped to cement the position 
of ethnically defined political parties, but has also 
suppressed alternative voices from civic groups, moderate 
political parties and the media, which goes to some of the 
concerns that were raised about the civil society. The result 
of this is a vicious circle which creates a dysfunctional and a 
divided country which suffers a serious democracy deficit. At 
best, Bosnia will remain unable to meet the requirements of 
Euro-Atlantic integration, and, at worst, its weak institutions 
will render it vulnerable to political instability and even 
conflict.
    Now, this situation poses a considerable risk to the 
substantial investment that was made by the international 
community, including the United States. It is important to note 
that Bosnia is key to this regional stability and security. And 
another Bosnian implosion or even prolonged stagnation is sure 
to have a ripple effect throughout this still vulnerable 
region.
    In addition, Bosnia has served as a trail-blazer for 
subsequent interventions in Kosovo, Afghanistan, and Iraq. And 
a failure in Bosnia would seriously question the credibility of 
the more demanding peace-building processes and democratization 
efforts in places like the Middle East.
    In my written testimony I offer several recommendations; 
but here, for the sake of time, I am going to summarize them. 
And I will just maybe reiterate the point that was made by Mr. 
Serwer, is that the process of a constitutional reform in which 
the international community has a role to play should be 
domestically driven and facilitated by the international 
community only by offering expertise and incentives for change.
    Next, and to go to answering the ranking member's question 
about the role of the EU, the U.S. and the EU must continue to 
share the burden of civilization democratization efforts in 
Bosnia. It is often said that Bosnia is a European problem by 
the virtue of geography. However, Bosnia's particular set of 
problems has proven to be too complex to be resolved simply by 
the lure of EU membership. And the U.S., as was pointed out I 
believe by Ambassador Volker, still possesses unrivaled 
credibility in the region, and it remains as such, 
indispensable in forging a common international policy and 
providing the necessary political and technical support to its 
EU partner.
    And finally, again just addressing what was brought up, and 
that is the support to not just formal state institutions, but 
also to civil society organizations, independent media, and 
moderate political parties. Civil society is working for 
moderation, compromise, and dialogue and helping to mitigate 
political conflict. And strengthening moderate political 
parties and objective media can enlarge political space that is 
currently monopolized by the nationalist political elites. 
These democracy-building efforts are really indispensable and 
substantially contribute to political stability and durable 
peace in Bosnia.
    Mr. Chairman, distinguished members, I would just like to 
point out that, as was mentioned, on October 3rd Bosnia is 
holding its Presidential and Parliamentary election. Foreign 
diplomats often say it is up to the Bosnian people to elect the 
kind of leadership to lead them to a better future, but they 
too recognize that fear and uncertainty about the future 
strongly influence voters' choices in favor of ethnically based 
parties. And consequently, as most observers will note, they 
don't see potential for any substantial change to the political 
landscape in what will be the country's tenth poll.
    I have to say I am optimistic about these elections, if for 
nothing then the fact that NED will have supported well over 30 
NGOs, youth movements, media outlets, civic associations 
throughout Bosnia to educate citizens, boost voter turnout, 
hold politicians accountable for their performance and promote 
issues that unite--and this is very important--unite different 
ethnic groups. It is these kinds of programs that NED and its 
grantees are supporting that seek to remove fear as a decisive 
factor in casting one's vote. And I believe these programs will 
make a difference.
    I would like to just thank you once again for demonstrating 
the commitment that you have and I look forward to taking your 
questions.
    [The prepared statement of Ms. Howard follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you very much.
    And last but not least, Ms. Aideen Gilmore. I am going to 
recognize you for 5 minutes.

STATEMENT OF MS. AIDEEN GILMORE, DEPUTY DIRECTOR, COMMITTEE ON 
                 THE ADMINISTRATION OF JUSTICE

    Ms. Gilmore. Thank you, Mr. Chair, distinguished members of 
the committee. Let me begin by thanking you for the opportunity 
and privilege of testifying before you today.
    As has been pointed out, America has played an extremely 
important and influential role in the peace process in Northern 
Ireland, and that support has been greatly appreciated and 
invaluable. Today I would like to present a brief summary of my 
written testimony which I would also like entered into the 
record. The Good Friday Agreement puts human rights and 
equality center stage in peace-building efforts. And in many 
ways Northern Ireland provides a role model for elsewhere on 
how a deeply divided society and seemingly intractable conflict 
can be moved forward when human rights and equality are put at 
its heart. Much has been achieved in Northern Ireland in our 
peace process, and Northern Ireland is now a very different 
place.
    Recently, however, we have made the international headlines 
again for the wrong reasons. This summer we have seen renewed 
violence and public disorder on the streets. Bomb alerts are 
now almost a daily occurrence in Northern Ireland. At best, 
these result in disruption and inconvenience; at worst, they 
have led to injury, including of young children. There have 
also been targeted injuries to and killings of police officers 
and army personnel in recent years.
    Therefore, while a lot of progress has undoubtedly been 
made, CAJ would caution against the rhetoric of recent times 
that the devolution of policing and justice is the final peace 
of the jigsaw in terms of the implementation of our peace 
agreement, thus implying that the peace process is now 
complete.
    I seek to highlight in this short briefing that this is not 
necessarily the case, and urge continued vigilance and support 
for the protection of human rights and equality in Northern 
Ireland as a means of embedding and sustaining the peace.
    There are three key issues in particular I believe that 
need to be addressed.
    The first is ongoing inequalities and socioeconomic 
disadvantage in some of those areas that were most impacted by 
the conflict. The peace process has seen much investment and 
development, much of it coming from the United States. However, 
recent figures show that the historically poorest areas in 
Northern Ireland are in many cases no better off, and, in some 
cases, are relatively worse off than they were during the 
conflict.
    Inequality and deprivation is also apparent, with Catholic 
areas featuring disproportionately. Also of note is the extent 
to which the deprivation is concentrated in areas that bore the 
brunt of the conflict in terms of highest number of deaths and 
injuries.
    These statistics tell us two worrying things. The first is 
that the prosperity that has been experienced in Northern 
Ireland from the late 1990s has bypassed these poorest sections 
in our society. The second is that if the areas which 
experienced the worst levels of violence are not feeling the 
benefits of the peace process, at least in social and economic 
terms, this is not a recipe for long-term stability. 
Opportunities exist to do something about this. There has been 
much focus in recent times on economic investment in Northern 
Ireland. What has been missing and what is needed is 
accompanying analysis on how that investment can best be used 
to target social need. If the people in those disadvantaged 
communities do not feel the economic benefit of the peace 
process, they will feel left behind, and CAJ fears what the 
cost of that isolation could be.
    The second issue is the need to develop a mechanism to deal 
with our past. The publication of the Bloody Sunday report and 
the subsequent debate have made it clear that Northern 
Ireland's past remains to be addressed. It has become clear 
that a line cannot be drawn under the past. Too many people 
have been affected by it and too many have unanswered 
questions.
    The approach taken to the past to date has been piecemeal 
and unsatisfactory, leaving many victims of the conflict from 
right across the community feeling left behind. Some mechanism 
will have to be developed to deal with our past if its horrors 
are not to undermine our future. The debate simply cannot be 
abandoned. Leadership is required by government, by political 
parties and by all of us in Northern Ireland to grasp the 
nettle of the past if we are truly to build a shared future. 
Your support in encouraging this leadership would be 
invaluable.
    The third and final issue is delivery on a specific Bill of 
Rights for Northern Ireland. The protection of human rights and 
the commitment to a Bill of Rights to reflect the particular 
circumstances of Northern Ireland were fundamental parts of the 
agreement and central to efforts of building a shared and 
peaceful future in Northern Ireland. Regular polling shows 
consistently high levels of support from the two main 
communities for a strong and inclusive Bill of Rights.
    In the history of our divided society, rarely have there 
been such high levels of agreement right across the community, 
and this is an opportunity that needs to be seized. The new 
U.K. Government has said that they will not legislate for a 
specific Bill of Rights for Northern Ireland, as required by 
the agreement; rather, they will consider incorporating 
additional rights for Northern Ireland within a section of a 
wider British Bill of Rights.
    We believe this approach is deeply problematic for two 
reasons. Firstly, it disregards the unique context of the Bill 
of Rights debate in Northern Ireland and instead wants to 
append it to a very different debate on a U.K.-wide Bill of 
Rights. Secondly, the agreement was directly concerned with 
protecting rights to reflect the principles of mutual respect 
for the identity and ethos of both main communities and parity 
of esteem. However, the U.K. Government approach of developing 
rights in a British context directly undermines this. It also 
ignores the fact that the very issue of nationality and 
identity is and always has been an issue of division and 
inequality in Northern Ireland.
    The Irish Minister for Foreign Affairs has clearly stated 
that the Irish Government is strongly of the view that a 
specific and substantial Bill of Rights for Northern Ireland is 
a central and crucial element of the agreement. Overall, the 
approach to be taken is seen by many as a retrograde step that 
risks undermining existing and hard-fought human rights and 
equality protections from our peace agreement.
    In closing, Mr. Chairman and members of the committee, 
Northern Ireland is a very different place and that so much has 
been achieved cannot be questioned. The support and 
encouragement of America has been a crucial factor in getting 
us to where we are today. My plea to you today is to maintain 
your support to ensure that peace is maintained and sustained. 
In particular, ensure that investment is used in a way that 
will help address the deep-rooted inequality and deprivation in 
those communities still bearing the scars of the conflict. 
Encourage leadership from the political parties in Northern 
Ireland and the U.K. and Irish Governments to develop a 
holistic process to help us deal with our past; and to help 
move on from the past and build a shared and peaceful future 
highlight to the U.K. Government the importance of delivering 
on the agreement and embedding a strong and inclusive specific 
Bill of Rights for Northern Ireland.
    Thank you again for the opportunity to testify and I look 
forward to taking your questions.
    [The prepared statement of Ms. Gilmore follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you, Ms. Gilmore.
    And I want to first inquire of Mr. Volker about your time.
    Mr. Volker. I think if I leave by 10:30 or 10:35 I should 
be fine.
    Mr. Carnahan. Okay. I think we will maybe start with some 
questions for you to accommodate your time. And again thank you 
for squeezing this in this morning.
    Mr. Volker. Thank you for your consideration.
    Mr. Carnahan. I thought your overview in comparison to some 
of the similarities and differences were very well done. And I 
guess I wanted to really focus on your last point about the 
U.S. role, because I think it has been a concern, particularly 
with regard to Bosnia, that, as you described, there have been 
times when we have been all in and other times when it seems 
like that has been on the back burner, and how you think, 
especially at the end of these elections in October, you know, 
how we can reengage in a strong way from our perspective, but 
also with regard to the EU, and, really, regardless of how the 
elections turn out.
    Mr. Volker. Thank you, Mr. Chairman. I began working on 
Bosnia in 1993, as I said. That was in the early days of the 
war. Beginning in the Clinton administration, we had a major 
effort to engage in the negotiating process. We didn't back it 
up with force. We signed an agreement May 1st of 1993. Bosnian 
Serbs disregarded it, acted without it, the Parliament rejected 
it, and we did nothing. Two years later we had the massacre in 
Srebrenica and then we finally got in for real.
    And that is the kind of lesson that I took about U.S. 
engagement. You have to get in and you have to be steady. And I 
think that is a lesson, even looking ahead. We are not in that 
same situation now. It is not good in Bosnia, but I don't see 
conflict on the horizon immediately. But in order to prevent 
that, we need to be engaging proactively.
    The EU is trying to reduce its presence in the near term. 
They have about 700 peacekeeping forces. They want to reduce 
that. They want to see the Office of the High Representative 
brought down and replace that with an EU High Representative.
    I think that we need to see more progress in Bosnia before 
we pull back. I think that the problem--I even thought that the 
S4 handover to the EU was premature. We shouldn't have done it 
when we did.
    We need to see a stronger civil society, as everyone here 
has mentioned. We need to see greater responsibility by the 
leading political parties for their own political framework. We 
need to see constitutional change so that we have an effective 
form of governance.
    So I would suggest that I think the United States and EU 
need to join together in the wake of elections to then put 
these things on the table and try to urge, encourage, press the 
parties to make progress in a number of areas so that we can 
get to the point where it doesn't depend as much on the 
international community. But I am afraid that if we slide into 
just reducing our activities and our engagement, including the 
EU, without that kind of progress we are going to face greater 
dangers in the future that could be prevented.
    Mr. Carnahan. Thank you. And then just one follow-up with 
regard to Northern Ireland.
    With regard to the debate about the Bill of Rights and what 
the new British Government is doing, to Ms. Gilmore's point 
about the unique circumstances of Northern Ireland and how to 
recognize that going forward.
    Mr. Volker. You know, in our country of course we have a 
Bill of Rights and we cherish it. It provides a clear statement 
of the rights of all individuals. I think two things are 
essential when you apply this idea of a Bill of Rights outside 
the United States in a territory like Northern Ireland. One of 
them is it needs to be clear that it is reinforcing equality 
and protections for all people in the province. If it is not 
seen that way, then it is not doing it is job. So I think we 
need to make sure that it is getting that sense of confidence.
    The second thing is that it needs to fit into a political 
context of what else has been going on. I mean, this is not the 
first step in a peace process in Northern Ireland. There has 
been a lot going on already. So we need to make sure that it is 
reinforcing what is there as well.
    And if I could add a third point, and I do believe this is 
what the British Government has tried to do, is to be as 
transparent and patient in the process as possible, so that you 
put proposals out, you allow for comments, you discuss them, 
you don't rush them. And if it is not going to produce the 
desired results, then you don't rush ahead, but you try to 
actually build that sense of confidence and protection in the 
communities that can help the province advance.
    Mr. Carnahan. Thank you very much. And I am going to 
recognize our ranking member, Mr. Rohrabacher. 
    Mr. Rohrabacher. And then we will go for a second round 
with the rest of the witnesses.
    Do we have military forces? We still have them in Kosovo, 
but are there U.S. military forces still active in Bosnia?
    Mr. Volker. There is a very small number. The EU has a lead 
military presence which is about 700. NATO has a headquarters 
in Bosnia and Herzegovina. And I spoke with someone yesterday; 
they said it was about 160. A fraction of that is U.S., so it 
is really very, very small.
    Mr. Rohrabacher. Do we actually have people carrying guns 
in somewhat combat operation?
    Mr. Volker. No combat operations. The principal functions 
of the NATO headquarters are to provide assistance with defense 
reform for the Bosnian Government and also to provide 
protection of documents and materials that are useful for the 
ICTY evidence. That is being digitized, and a demand for a 
protection of those documents will diminish over time.
    Mr. Rohrabacher. And what about how much is this--how much 
has Bosnia, this operation now, we have one witness who 
suggests it is $15 billion. Do you have a guesstimate as to 
from then--from start to now?
    Mr. Volker. I don't. I know the USAID figure is about $1 
billion in assistance. But of course military operations are 
vastly more expensive, and I don't have a figure to offer for 
that.
    Mr. Rohrabacher. Do we know how much the operation in terms 
of the limited military presence that you just described is 
costing the American people?
    Mr. Volker. I don't have a figure on that either. But if 
you are--as a guesstimate, you are looking at about 40 people 
with some logistical support that is coordinated through NATO. 
I can't see that that is going to be costing very much, 
especially considering that they be deployed in Europe anyway.
    Mr. Rohrabacher. My guess, not very much is still in the 
millions.
    Mr. Volker. It may be, but it may also be millions that we 
would be spending somewhere else. It may not be incrementally 
above.
    Mr. Rohrabacher. I can assure you with this Congress today, 
if it wasn't being spent there, it would be spent somewhere 
else, but it doesn't necessarily justify it. There seems to be 
a change in attitude in Serbia from being, in the worst days, 
perpetrators of horrendous crimes, especially in the Bosnia 
area, to now being--Serbia being led by people who really would 
like to have a peaceful democracy. And they have recently, I 
understand, their government has permitted the indictment of 
Serbian leaders who participated in crimes during that time 
period.
    How do you assess Serbia's role at this point?
    Mr. Volker. I agree with you. I think that the recent 
arrests of paramilitary personnel who carried out atrocities in 
Kosovo is a very encouraging step. I think the Serbian 
Government has shown much greater interest in integration with 
Europe and coming to terms at least with the ethnic cleansing 
and the wars of the past, if not the issue of Kosovo 
independence. So I think that is very encouraging, and I think 
that is something that we should be supporting and encouraging 
to move ahead.
    If I may address two other thoughts. One of them is what 
you highlighted in your earlier question, was the military 
presence of the United States. And I don't believe the military 
presence is the important factor right now. There is no 
conflict going on, and I think it is unlikely that new conflict 
will arise in any short order.
    What is necessary are the kinds of things that I think the 
other panelists and I discussed of support for civil society, 
constitutional reform, and getting the parties to take more of 
a lead in organizing better governance in Bosnia. The second 
thing----
    Mr. Rohrabacher. And how much does that cost?
    Mr. Volker. That is diplomat engagement. It may provide 
some additional assistance. We had CDAC. I don't have a figure 
to offer you as to what we are doing and where we need to go, 
but I think in the tens of millions of dollars is probably 
about what I would expect.
    Mr. Rohrabacher. And what is the population of Bosnia?
    Mr. Volker. The population of Bosnia.
    Ms. Howard. There hasn't been an official census since 
1991, but the estimate is about 4.5 million. The previous 
population was 4.4. And it is very difficult to estimate at 
this point because the issue of census is very contentious.
    Mr. Volker. And if I could just add a final point. One of 
the things that has made the most difference in Central and 
Eastern Europe and the Balkans over the past two decades has 
been the vision of a Europe that is democratic, market-
economic, and secure and integrated. That has helped Poland, 
Hungary, Czech Republic and so on. That vision still applies 
but has never been realized in the Balkans.
    And I think the European Union has become much more passive 
about this, and I think we have been passive about encouraging 
the European Union, NATO, others, to keep pressing that. I 
think that vision remains very powerful and is ultimately the 
way to see a prosperous region that doesn't depend on external 
support.
    Mr. Rohrabacher. Let me ask finally, my time is about up 
now as well, just one last question. The vision of having an 
envelopment by the European Union of this unsolved situation 
then becoming solved, how does the possibility of that compare 
to perhaps a vision that the peoples of the former Yugoslavia 
perhaps could find some sort of reconciliation and become part 
of an entity again of their own, rather than having to think of 
this as a greater European, you know, involvement to end that, 
but instead perhaps--because I understand the Croatians, for 
example, are in a very good relationship with the Serbians 
right now.
    And I remember years ago when I went to Croatia, when there 
was people slaughtering one another, and I couldn't figure out 
how they could tell the difference what a Croatian was and what 
a Serbian was. How do you know who to aim your gun at? And I 
guess that is sort of true in Northern Ireland as well.
    But right now I understand that the Serbians and the 
Croatians are working together, and perhaps a vision of a 
greater cooperation--and of course we have noted the change of 
a--the wonderful change that we have seen in Serbia--what about 
the idea of a vision of these states working together as a 
solution, as compared to going to the EU?
    Mr. Volker. Sir, if I may, a great American poet wrote, 
``Good fences make good neighbors.'' And I think that is what 
we are seeing. As long as they are independent and confident, 
then they can work together. And I don't see any prospect of 
regional-only cooperation. I see the prospect of growing 
cooperation within the framework of being part of a mainstream 
of Europe. And I think that they do go hand in hand.
    The European Union has the ability to push for reforms and 
for progress, which the people and governments of the region 
may find difficult but be willing to do if they can be assured 
of access to that greater European family. That has always been 
the tradeoff. If it is just the countries in the region alone, 
they are going to act very independently because the worst 
atrocities in Europe since World War II took place there just 
15 years ago, and that level of confidence isn't going to be 
there without the European Union.
    Mr. Rohrabacher. Thank you very much. Thank you.
    Mr. Carnahan. Thank you, Ambassador. And I am going to 
excuse you and honor your time, and again thank you.
    Mr. Volker. Mr. Chairman, thank you for having me. Ranking 
Member, thank you.
    Mr. Carnahan. I want to turn next to Ms. Gilmore and follow 
up and say I really think you hit the nail on the head in 
describing some of these very complicated issues in the span of 
5 minutes. That is remarkable in itself. But I really want to 
get into some more detail about the issue of people feeling 
left behind, whether it is the disadvantaged communities, 
whether it is victims, and what are the most concrete steps 
that you think can be taken in order to address that. Because 
to me, when people don't feel the benefits of that peace 
process clearly, it can lead to despair, to violence, and 
undoing so much of the good work that has come about.
    But I think we are missing the boat if we can't focus and 
address the needs of some of those communities that are being 
left behind. So if you could address that, please.
    Ms. Gilmore. The life of socioeconomic deprivation in those 
communities that bore the brunt of the conflict and in which we 
are seeing renewed violence, in my mind could be quite easily 
addressed by implementing some of the measures either that we 
have in place or that were promised as part of the agreement. 
And even looking at it in sort of economic terms, the levels of 
investment that are coming into Northern Ireland need to be 
targeted. We have an antipoverty strategy, we have a statutory 
equality duty which requires all government policy to be 
assessed for its impact across a range of grounds. And in terms 
of the resources that are coming into Northern Ireland, or even 
the resources that we currently have, if those analyses were 
being properly carried out and properly targeted, then we 
should start to see some impact in these deprived communities.
    So we need to look at how we break the cycle of long-term 
unemployment, for example, and if new businesses and new job 
opportunities are coming into Belfast or coming into other 
parts of Northern Ireland, how we can start to offer employment 
opportunities in those areas where long-term unemployment is a 
problem.
    Likewise we need to just invest more in the social aspect 
of those communities. Many of them are sort of the very 
communities that experienced the brunt of the conflict and they 
haven't seen the same level of regeneration and investment. We 
have a number of regeneration initiatives that have been 
proposed and master plans for redevelopment of some of these 
areas, and it is important that the communities themselves 
participate in discussions about what they want their 
communities to look like.
    The point has been raised about the importance of civil 
society and a strong civil society. And in Northern Ireland we 
actually do have a very strong civil society, but it is 
bringing a civil society voice and bringing those people into 
the room by giving them a say in how to improve their 
communities that is important.
    Mr. Carnahan. And what does that engagement look like now? 
Because I guess even if you have great engagement, if you don't 
have follow-on results, I think that even adds to the despair. 
So how do you judge that level of engagement now in terms of 
what is going on?
    Ms. Gilmore. I think it has been problematic to some 
extent, because we have a model or method of consultation where 
communities are consulted about the kinds of change they would 
like to see in their areas. But you don't see the results of 
that consultation coming through. There's no follow-through. I 
think what is needed more is a model of participation, if you 
like, active community participation in decisions because, as 
you have sort of hinted at, the risk is that you build people's 
expectations up, so you tell them they have a voice in their 
community. But if they don't then see the follow-through, that 
results in even more disillusionment among those communities.
    Mr. Carnahan. Okay. Thank you.
    I am going to yield to Mr. Rohrabacher.
    Mr. Rohrabacher. So how much have we spent in Northern 
Ireland?
    Ms. Gilmore. I think, Mr. Chair mentioned that it was $500 
million.
    Mr. Rohrabacher. $500 million over a 10-year period. You 
know, I remember the frustration over the years with what was 
going on in Ireland, and I spent a lot of time and a lot of 
focus on it. As many Americans, I have a sort of a natural 
attachment to Ireland and the people of Ireland. My middle name 
is Tyrone. However, it is not from County Tyrone, I am afraid. 
I am afraid my mother named me after Dana Andrews and Tyrone 
Powers, who were the movie stars of the year that I was born. 
But I do enjoy the Irish culture and have studied the Irish 
culture.
    What I noted was the greatest--and correct me if I am 
wrong--really, the greatest strides toward peace happened when 
women in Ireland put their foot down and worked together to try 
to create a peace there, and I believe that was back in the 
1970s. Can we really make a difference from this level, or does 
it really have to come from within? And as I say, I believe 
these two women received Nobel Peace Prizes back in 1976, which 
they rightly deserved.
    Ms. Gilmore. I think both levels are needed. Both 
approaches are needed. It is very important to have the 
grassroots movement and participation in building 
constitutional reform, for example, in building peace. And I 
think, without question, the strong and vibrant civil society 
that existed in Northern Ireland, the likes of the women's 
movements, human rights organizations, strong community 
associations really helped to maintain some sense of normality 
in a very violent conflict, and then were absolutely 
instrumental in helping to build the peace and help then 
maintain the peace.
    And in things like constitutional reform then and 
development of bills of rights and things, I think it is very 
important that you have that grassroots investment. But it is 
clear as well that you need the higher level of political 
intervention. I think that is very much the lesson in Northern 
Ireland in relation to, for example, specifically, the 
relationship with the United States, I think, the support that 
was given to the British and Irish Governments in their efforts 
to drive forward a peace process by the American administration 
and Congress was essential.
    But also, it was the influence that was exerted on our 
local political parties as well, and it is the support in 
driving them forward and making them aware that this wasn't 
just about them, that there were people around the world who 
were interested in seeing peace delivered and peace sustained. 
So I think it has to be a combination of political leadership 
and fundamentally grassroots participation.
    Mr. Rohrabacher. Let me ask a you specific question about, 
because we just had this Bloody Sunday report, et cetera, 
during the time of conflict, there has been really criminal 
behavior on the part of two parties, not just one. I mean, the 
British Government certainly stepped over the boundary, and 
there is no doubt about that. But there is also no doubt that 
the British Government was facing a group of people who were 
also stepping over the bounds of acceptable resistance. They 
were murdering innocent people in pubs and elsewhere with 
bombs, et cetera.
    Do you believe that we should be, now, the position should 
be, we finally put an end to this, and we should just have, 
forget the past, we should just, at this point, not forget the 
past, but just a general amnesty for people who are on both 
sides of this rotten conflict where people were doing bad 
things to innocent people?
    Ms. Gilmore. I think that was the hope when our agreement 
was reached and it is arguable that perhaps, it wouldn't have 
been possible to reach agreement on how to deal with our past 
at the time our peace agreement was reached, and maybe that is 
why it wasn't addressed. So the agreement sought to draw that 
line and say, the past has been terrible, let's move on, build 
our future.
    But Northern Ireland has a very, very small society: 1.7 
million people, very small, local close-knit communities, and 
lost over 3,500 lives with tens of thousands injured. And in 
such a small geographic location with such small close-knit 
communities, everybody felt the impact of the conflict in some 
way, physically and mentally and emotionally. And for those 
people, the past is very much present, and the trauma that they 
went through is still very much part of their lives.
    And you can't turn around to victims of conflict and say, 
you must forget about what has happened to you and move on to 
the future. People have questions that they want answered 
across all sides in terms of what happened to their loved ones 
and what happened to their families. And I think we are 
increasingly seeing the need to provide some answers to 
questions to give some people closure, because they are not 
going to invest in the future if they haven't been able to deal 
with the past.
    Mr. Rohrabacher. I think answering questions and bringing 
closure to people's consciousness about their loved ones who 
are no longer with them is really an important factor.
    I think that necessarily establishing a concept of justice 
may or may not be. You know, in the Civil War of the United 
States, we had tremendous slaughter on both sides. And yet, I 
think President Lincoln's, one of his most famous words were 
``charity for all and malice toward none.'' Is that the right 
quote? And I think that is the way you end conflicts, is that 
eventually people understand that bad things are done on both 
sides. This isn't necessarily a case like, in Bosnia, for 
example, where you actually had leaders deciding that they are 
going to systematically go out and slaughter people in order to 
terrorize the whole population.
    I think that--and you can correct me if I am wrong--that in 
the Northern Ireland situation, it was basically where you had 
people who are out of control and both in the constabulary area 
and both in the, I say private sector for lack of a better 
term, for what was going on among the IRA, so perhaps people 
need to be held accountable for what they do officially, and 
are--but perhaps people should be forgiven if they have lost 
control and the crimes are committed during conflicts.
    Ms. Gilmore. I think there are three key elements that any 
process to deal with the past should comprise. I think it has 
to be a mixture of truth, justice and then forgiveness and 
reconciliation.
    Not everybody in Northern Ireland wants justice. Some of 
them just want the truth about what happened. And you know, the 
reality is so much time has passed now. Key witnesses will be 
dying, and information is gone. So I think people realize that 
actually the reality of prosecutions is getting further and 
further away the further we get from our conflict.
    But I think the important thing is that you take a victim-
centered approach so that whoever is engaging with the process 
to deal with the past, if they are a family who want justice, 
that they at least have an option of pursuing that route. If 
they are a family who just wants truth, that they have the 
option of pursuing that route if they want forgiveness, too. So 
it is providing the options and focusing on the people who have 
actually been impacted by the conflict.
    Mr. Rohrabacher. Truth and justice. That is interesting. 
Thank you very much.
    Mr. Carnahan. Thank you.
    And I wanted to turn to our other witnesses, Mr. Serwer, 
and wanted to see if you would elaborate on actions that can 
and should be taken in Bosnia after the elections. You 
mentioned a bottom-up approach that the EU and the U.S. could 
help facilitate. Describe what you think that would look like 
in an ideal situation and how that would work well. And then I 
want to follow up with Ms. Howard on that as well.
    Mr. Serwer. Mr. Chairman, thank you.
    I hope you won't mind if I go back to two formalities I may 
have skipped when I first spoke. One is that I should have said 
these are my personal views, and the other is that I have a 
full text that I hope I can submit for the record.
    Mr. Carnahan. Without objection.
    Mr. Serwer. Thank you. I think when it comes to 
constitutional reform, the two efforts that have been 
undertaken, one led by the U.S. Institute of Peace and another 
led by the State Department, have been entirely top-down. The 
people of Bosnia have been completely left out of the picture.
    My view is that the U.S. and EU should take relatively 
small amounts of money and sponsor throughout Bosnia town 
meetings for discussion of constitutional reform. In the 
meanwhile, the EU should lay out the criteria that the Bosnian 
constitution is going to have to meet. I don't think we should 
lay out specific amendments to that Constitution as we have 
done twice in the past and failed twice in the past.
    The EU can tell the Bosnians, your Constitution is going to 
have to do this, it is going to have to do that. The court has 
already told them they have to get rid of the discriminatory 
provisions. That would be an adequate basis for town hall 
meetings all over Bosnia, and an effort to generate a truly 
grassroots discussion and grassroots pressure for 
constitutional reform, which has been completely lacking, 
except really in the Bosniak community and sometimes in the 
Croat community--where the grassroots effort is for a third 
entity, which in my view would not be the right direction.
    We do this kind of thing, in the U.S. all the time. It 
shouldn't be hard to picture what kind of discussion we could 
generate in Bosnia.
    But I wanted to also comment, if you will allow me, on a 
couple of things Kurt said because I might differ a little bit. 
I am not completely encouraged by Belgrade's current attitude, 
either on Bosnia or, in particular, on Kosovo.
    On Bosnia, the official position is a strong ``one Bosnia'' 
position. But, frankly, Belgrade is doing everything it can to 
support the efforts of Republika Srpska to continue to 
establish de facto autonomy and even independence.
    A second point I would like to disagree on a little bit. 
Kurt suggested that conflict was very unlikely. I think it is 
not imminent, but I think we would be making a grave mistake to 
ignore the possibility of resurgent conflict in Bosnia. In 
particular, the calling of a referendum on the High Rep powers 
or on the independence for Republika Srpska, in my view, would 
be viewed by the Bosniaks, and many Croats and Serbs who were 
loyal to the Sarajevo Government as well, as a casus belli. And 
I think we need to be sure that we can prevent the holding of 
the referendum in Republika Srpska alone, which is a territory 
ethnically cleansed and with a population that does not 
represent the views of those who lived there before the war.
    Finally, I would like to make the point that I think what 
we need is not so much U.S. re-engagement. I think the embassy 
thinks it has been engaged the whole time. The people in the 
High Rep's Office think they have been engaged the whole time. 
But we have been engaged across too broad a front of issues, 
and you lose your focus when you engage on too many issues.
    Our embassy in Sarajevo has 9 political officers. This is a 
very large political section in an embassy of a country of 4.5 
million people. I have proposed specifically that a third of 
those political officers be given over to the EU Special 
Representative if, in fact, we can have a super EUSR, one with 
real powers at his or her disposal.
    I also think that Europeans should start cutting their 
bilateral embassies there. There is a cacophony of 
international voices in Sarajevo. We need a unity of 
international voices in Sarajevo. And that doesn't mean 
disengaging. That means unifying and sharpening our focus.
    Mr. Carnahan. Thank you.
    Ms. Howard, to my question that I presented to Mr. Serwer, 
in terms of how, what he described in terms of that bottom-up 
engagement, how you think that, as a practical matter, would 
work, and what kind of impact you think that would have 
compared to prior reform efforts.
    Ms. Howard. Speaking of unity of voices, it is always great 
to see someone who agrees so much with you, but then there is 
not much for me to add. But I will try definitely.
    I absolutely can agree that this has to be a bottom-up 
approach. I even said that in my testimony last year to the 
U.S. Helsinki Commission, that it has to be a domestically 
driven process.
    Previous processes, I think one of the reasons that have 
contributed to their failure has been that they have really 
been top-down and that they were only discussed with a handful 
of politicians, which not only then made them vulnerable to 
manipulation in public, because to this day quite a few 
Bosnians, citizens, don't even know what is contained in those 
packages that were proposed to Bosnian political leaders to 
adopt this constitution. And so this is one problem.
    And the second problem is that often in these processes, 
the emphasis is placed on reaching a political deal and 
basically negotiating it down to the point of least common 
denominator and not so much focusing on what will make the 
country truly functional, a truly functional democracy, because 
to obtain long-term stability and prosperity, this it what we 
need to have, is a functional country.
    So, in terms of how does this look in the future, I mean, I 
can't provide a recipe that would work because I think that 
really then maybe I wouldn't be sitting here if this were so 
easily obtainable and possible.
    But I will agree with Mr. Serwer that the role of the 
international community should be in providing incentives, 
first of all, by tying some of these reform processes through 
the prospect, which has to be a tangible and achievable 
prospect, of EU and NATO membership. That is one.
    And second is to provide expertise, because, and this is 
the extent to which the international community should get 
involved, because to provide ready-made solutions is, like Mr. 
Serwer said, is really not desirable.
    I think that civil society has a great role to play in this 
process immediately following elections. I am certain that 
there will be an opportunity created and momentum for change. I 
am not talking about necessarily political change and the 
outcome of elections. I am just saying about an opportunity to 
change the way that the current system is working or actually 
not working.
    I can say specifically, for example, in the case of the 
National Endowment for Democracy, that we are working with some 
of the civil society organizations to open up this process, and 
something that very much looks like what Mr. Serwer is 
proposing, and that is a series of town hall meetings, 
consultations with civil society and the media and getting 
everybody involved and getting this to be an all-inclusive 
process, in which people can, not only be fully aware of what 
these packages contain and what these processes contain, but 
can also contribute to it, because after all, this is the only 
way that this new system, if it were to be devised, can have a 
popular legitimacy, which it doesn't have currently because the 
international document fashioned in Dayton is, not only was it 
never subject to ratification by the Bosnian Parliament, but it 
remains to be only an English language original. It has never 
been translated into the languages spoken in the region.
    Just to one point, I don't know if this has answered your 
questions or if I should elaborate more, but I would also touch 
on this issue of security. It is in my written testimony. I 
haven't had a chance to mention it. I would also be very 
careful in dismissing a possibility of violence and conflict. I 
am certain that if it were to happen, which I am not predicting 
that it will, but if it were to happen, it would not be at the 
scale that we have seen in the early 1990s.
    But we cannot just estimate that this is not a possibility 
or yes a possibility, because there has not really been a 
systematic attempt to assess what is the true security threat 
in Bosnia. There have been several major incidents of violence, 
not necessarily interethnic violence, but they could have had a 
potential to spread out.
    One of the most recent ones I would like to point out is 
the June 2010 bombing of the police station in Bugojno, in 
which one police officer died and six were wounded. And this 
was the most serious and the largest security threat Bosnia has 
faced since the 1990s. It could very well spiral out of 
control. And as Ambassador Volker has pointed out, there are 
very few soldiers on the ground that would be able to contain 
this type of violence.
    Mr. Carnahan. One other thing I wanted to follow up on is 
the work reaching out to young people in Bosnia. I had a chance 
on my last visit to go to one of the local universities and 
talk with a very diverse group of students there. And they 
seemed very progressive and, you know, very concerned about 
their future. And I would just be really interested in your 
comments about where you think young people are to the extent 
of their involvement in these elections and to the extent you 
think they would be involved and engaged in some kind of a 
bottom-up process on reform.
    Ms. Howard. I have to say I am very optimistic but also 
very pessimistic.
    The reason for pessimism, let me start with bad news first, 
is something that also Mr. Serwer has touched upon, and that is 
the educational system, which is deeply divided, deeply 
segregated. And what it is producing is new generations of 
people who do not know each other. They don't understand each 
other. They are taught to hate each other in some cases, or 
simply do not understand.
    I think it is unacceptable to have something as we have in 
Bosnia, well over 50 schools which are considered to be two 
schools under one roof, or as Mr. Serwer has mentioned, 
separate but equal type of system in which children of 
different ethnic backgrounds are being taught separately and 
are attending classes separately. I think, in the long term, 
this is going to produce generations that might not be able to 
live together.
    However, at the same time, I do have a lot of hope and 
optimism about the generations that are now coming of voting 
age and are university students, like you mentioned yourself, 
those that in some ways were touched by the war but, on the 
other hand, did not, perhaps, were not indoctrinated by some of 
this, the educational system that I have just described.
    Civil society has, many observers have said this, has 
engaged in pre-election processes to the extent it has never 
done before. I find it is very encouraging to see how 
innovative civil society, especially youth organizations, have 
been to try to emphasize accountability of politicians and try 
to basically stop them from hiding behind the curtain of 
territorial issues and ethnic issues, as they have done in 
2006.
    For example, I would just point out, you may find it 
interesting, that they have even borrowed from the United 
States' experiences and have developed a Bosnian version of a 
Politifact Web site in which they are looking at the statements 
made by politicians back in 2006 and basically fact-checking 
them for consistency, for the level of--it has been a highly 
contested Web site among the parties, as is to be expected, 
which do not like to be so deeply scrutinized. But I do really 
believe that this is going to contribute to--as I mentioned in 
my testimony, NED has supported quite a few efforts to get out 
the vote.
    As in most countries in the region, youth apathy is at a 
very high level. Very few youth vote. We, of course, believe 
always that it is the youth that brings the voice of 
moderation, as you yourself said, and that increasing youth 
voter turnout would actually contribute in creating a more 
moderate political climate in Bosnia. And I am really hopeful 
about that.
    Mr. Carnahan. Thank you. I apologize. I am over my time.
    But I want to recognize the gentleman from Minnesota.
    Mr. Ellison. Thank you, Mr. Chairman.
    And good morning. Thank you all for your very insightful 
and informative presentations. I had some lengthy conversation 
with members of my Bosnian community in Minnesota and then even 
in New York. I happened to be in New York, and they sat me down 
and talked for quite a long time. I took a lot of notes.
    Obviously, the questions that they asked me to ask you are 
going to be informed by their own experiences, but I did 
promise them that I would ask the experts. So, here are some of 
the questions they asked me to ask you, and I am just going to 
read them as they came to me.
    I recently met with a group of--well, that is my 
statement--i recently met with a group of Bosnian Americans. 
According to them, there were recent elections in which Bosnian 
Muslims won the elections but were later ruled invalid. Is 
there any truth to this statement, and can you tell me any more 
about it? Do you know anything about this?
    Ms. Howard. I can't think of what this could be referring 
to because the latest election--Bosnia had a general election. 
Presidential and parliamentary were in 2006, and the local 
elections were in October 2008. I was in Bosnia at the time of 
the local elections, held now almost 2 years ago, and to my 
knowledge, I don't remember them being contested. They have 
been ruled free and fair. The 2006 elections have been ruled 
free and fair by the OSCE with some small irregularities.
    The local elections were not observed by the internationals 
but have also been deemed to be free and fair. And I don't know 
if there is something that I am missing, but to my knowledge, 
this seems to not be----
    Mr. Ellison. I appreciate you telling me that. That is the 
feedback I will share with them. But they also talked, 
described at length a situation where they had some parties 
that were contesting in the election, and that somehow the 
election authority invalidated one particular party that ended 
up with more votes. And this was, I think this was around the 
area of Sandzak. Are you familiar with this area?
    Ms. Howard. I can address that. I think I do--they were the 
elections for the National Minority Councils in Serbia which 
were held on June 6. And indeed, yes, those elections were 
contested. There were three, so to say, players or groups that 
were participating in these elections in the Sandzak area. 
Sandzak area is basically a part of southwest Serbia that is 
largely inhabited by a Bosniak community. And the group that 
has won the most seats in these elections has not been able to 
constitute the Minority Council as they were supposed to.
    There are various versions of why this happened, and it is 
a highly contested issue indeed. And I think in that case, I 
think the only thing that I would point out, it is an area in 
the Balkans right now that we should be closely watching, that 
an area for which we should encourage the Government of Serbia 
to approach a bit more constructively and provide the kind of 
support that the leaders and the civil society need over there.
    And in addition, I would also expect and hope that the 
religious leaders, especially the Islamic leaders in the 
region, would be encouraged to provide voices of moderation to 
those in Sandzak in order to resolve this issue and avoid any 
escalation of it.
    Mr. Ellison. Is there anything the United States should or 
should not do? I mean, maybe we should just stay out of it. But 
do you have any advice for how we might approach it?
    Ms. Howard. Well, at this point, I think, just in terms of 
encouraging the voices of moderation and encouraging the 
Government of Serbia to approach this issue in a constructive 
manner and to basically negotiate with all the parties involved 
to make sure that this does not escalate to the point at which 
we do need to get involved in a way in which I think you mean. 
But at this point, I think only in diplomatic means, just 
encourage these.
    Mr. Ellison. Okay. Thank you. That is very helpful. I 
appreciate your perspective.
    Another question they asked me is whether you all can share 
your views about the educational system. You have already 
touched on it quite a bit. Some of the people who I met with 
who are Bosniaks said that they were not allowed to learn about 
their heritage, their legacy. Could you address this issue?
    Mr. Serwer. Yes, there are parts of Bosnia in which that 
might well be true. There are other parts of Bosnia in which 
Serbs wouldn't be able to learn about their heritage. This is a 
very difficult subject. It is not easy to fix a school system 
after war.
    But what many Bosnian children are being taught today is 
encouraging ethnic tension and strife. And what we really need 
to do is work for schools in which all Bosnians, of whatever 
ethnicity, will feel comfortable.
    USIP, my institute, has in fact sponsored a good deal of 
work on the history of recent developments in the Balkans. That 
work has been supported also by National Endowment for 
Democracy and The Balkan Trust.
    There are common narratives that can be taught. And if 
there aren't common narratives, sometimes there are parallel 
narratives that can be taught. It is important to learn your 
own narrative and important to learn somebody else's narrative.
    We can't get at this problem bilaterally as the United 
States. The OSCE is responsible for the international efforts 
for education in Bosnia, and I think we should reactivate the 
OSCE and provide it with strong support to eliminate ``separate 
but equal'' and the teaching of narratives that can only 
encourage future conflict.
    Mr. Ellison. Forgive my ignorance. I don't know what OSCE 
stands for.
    Mr. Serwer. I am sorry. OSCE is the Organization for 
Security and Cooperation in Europe. It is the Helsinki 
Agreement organization, to speak in Cold War terms about it.
    Mr. Ellison. Okay. That is fine.
    Ms. Howard.
    Ms. Howard. I would only add, because civil society was 
mentioned several times, that civil society is really trying 
very hard to provide, to supplement and address these 
deficiencies in the educational system by providing some other 
innovative methods. One of them is this approach to historic 
reconciliation by teaching common narratives or even providing 
multi perspective historic lessons. Another one is by, for 
example, using documentary films about human rights in schools. 
One NED grantee, for example, has used animation to devise a 
digital interactive map about what happened in Srebrenica day 
by day, which is now widely available online and in digital 
form to citizens not only in Bosnia but also Serbia. And this 
organization, Youth Initiative Human Rights, who is also 
grantee, I believe, of USIP, is now going around schools in 
Bosnia and Serbia as well to educate their peers on what 
happened.
    So, until there is a better educational system in place, 
formal educational system, civil society is really trying to do 
the best that they can to address some of these deficiencies.
    Mr. Ellison. Mr. Chair, I have got two more questions. Do I 
have time to ask those?
    Mr. Carnahan. I think we are good on time. Go ahead. We 
missed you on some earlier rounds, so we will give you some 
extra.
    Mr. Ellison. So, is there the political wherewithal to help 
supplement these better educational approaches that you all are 
proposing? Because my question is, I love your ideas, and I 
think they are good. But I guess my question is, they do 
require somebody to implement them, and do the people who have 
the power, are they willing to support these kinds of 
approaches?
    Mr. Serwer. Mr. Ellison, I am afraid the short answer to 
your question today is not the people currently in power. They 
have not been willing and have, in fact, built a system of 
separate but equal quite intentionally. I have some hope that 
the early October elections, October 3, will bring to power a 
government that has different attitudes on the constitutional 
and educational issues.
    I think a great deal depends on how the EU and the US treat 
these issues and what expectations we lay down for the 
Bosnians. If we are clear that separate but equal is not a way 
you get into the European Union; if we are clear that the 
entity veto process in the Bosnian constitution is not 
acceptable for a member of the European Union, the Bosnians 
will adjust to those expectations.
    In addition, frankly, there are some political parties more 
open to that adjustment than others. I hope to see more of them 
in power and fewer of those who have become really stalwart 
defenders of separation.
    Mr. Ellison. Some of the people I talked to demonstrated a 
lot of confidence in the political party connected to Mr. 
Djindjic. Are you familiar with this? They felt that that 
political party was more open. Are they viable? I mean, do you 
agree with that assessment?
    Mr. Serwer. Mr. Djindjic's party is a party in Serbia, not 
in Bosnia, and it has no clear equivalent in Bosnia.
    I think it is fair to say the Bosnian Serb population is 
right now heavily dominated by ethno-nationalist parties, which 
do not share the commitment to the EU and to democracy that Mr. 
Djindjic demonstrated. Even his own party in Serbia today, I 
would say, does not share entirely his vision, in particular on 
the subject of Kosovo.
    Mr. Ellison. Okay. And my last question is, for these 
folks, and I, again, I talked to them in Minnesota and in New 
York, and as you know, there is a large Bosnian community in 
St. Louis and also in Chicago, and actually Bosnian Americans 
are really getting to be quite a political entity on their own. 
What role do you see for Bosnian Americans, or maybe the 
Bosnian diaspora, writ large, in helping to facilitate and 
improve quality of life in Bosnia? Because a lot of them have 
expressed interest; I mean, many of them, you know, their feet 
might be in New York, but their hearts are back there. So do 
you have any recommendation on what Bosnian community members, 
how they might make a positive contribution?
    Ms. Howard. Well, several. One is very simple, and if I can 
just say it so simply, send money. Because I will agree with 
Ms. Gilmore is that the economy is very important in bringing 
peace and stability. And at this point, in a so dysfunctional 
and divided country, it is very difficult to attract foreign 
direct investment. And Bosnia has really suffered economically 
because of its unstable political situation. So remittances 
for--from their families living abroad.
    And I would only just mention one large other community 
that we shouldn't forget, and that is Atlanta, which I think 
also has a sizeable community there.
    But I do think that this is definitely one way of helping. 
The other way, and this is where things can be a bit sensitive 
sometimes with the diaspora, and they can play a very 
constructive role, but again, also play a very dangerous role 
in their rhetoric and these messages that are being sent back 
to their families and either supporting reconciliation, but 
also not necessarily providing a very constructive voice 
because we have, as we know, I think, in many diasporas, this 
is the case, diasporas can be a bit more radical sometimes than 
their counterparts living in the country and actually being 
directly touched by the situation.
    So, in that sense, the community here should remain 
engaged, both, like I said, financially, but also they should 
really continue to care, to encourage their representatives 
here in the United States to remain engaged and I think just be 
constructive and recognize that it is a very fragile situation 
there, and that their voices can contribute and should not, 
definitely, try to add to the fires of this nationalist 
rhetoric.
    Mr. Ellison. I will let them know.
    And Ms. Gilmore, forgive me for not asking you many 
questions. I didn't talk to my northern Irish community much in 
preparation for this meeting. But I learned a lot from what you 
shared with us and I thank you for it.
    Mr. Carnahan. Thank you.
    And I am going to use your question though to give to Ms. 
Gilmore later. But we may have another member joining us we 
will try to get in.
    We expect some votes on the floor coming up. But we are 
going to try to go to Mr. Rohrabacher next, and we may be 
hearing some bells going off soon, but we still have a few more 
minutes.
    Mr. Rohrabacher.
    Mr. Rohrabacher. What language do they speak in Bosnia, and 
is it different than is spoken in Serbia and Croatia? Do the 
Bosnian Serbs and the other Bosnians speak a different 
language?
    Ms. Howard. It is a very tough question to answer. I have 
to say, before the falling apart of Yugoslavia, the language 
was called Serbo-Croatian, and these languages are considered 
to be dialects.
    But I think that today the most, how would I say it, 
broadly accepted answer to this question would be that there is 
a Bosnian Croatian and Serbian language. And the differences 
between these languages I always like to say are the same as 
differences between Irish English, British English, and 
American English. But I think that it is to understand if you 
understand the nuances and the historical background of what 
happened, it is fully understandable that each of the self-
defining groups likes to have language as part of their 
identity. And regardless of what one might think of what the 
true differences between these languages are, we should really 
respect that desire by ethnic groups to have their own 
language.
    Mr. Rohrabacher. Correct me if I am wrong. But it is really 
hard to tell someone from Northern Ireland and from southern 
Ireland by their accent. At least it is hard for me. I am down 
at the pub, and I can't really tell who I should be telling 
what joke to on either side of me because I can't tell which 
one's from Northern Ireland and which one's from southern 
Ireland. Isn't that the case as well? I mean, there is not 
really much a difference there.
    Ms. Howard. Well, you can tell by dialect whether someone 
is from Serbia or Croatia. In Bosnia, it is much more difficult 
to say. There are some slight differences and nuances, but 
people have--it all depends on where one went to school, for 
example.
    Mr. Rohrabacher. Well, my guess is there is probably less 
distinction between those people than there is, in terms of 
their language, than there is between someone who comes from 
Mississippi and New York. And that is just a thought. And of 
course, I think the people of Mississippi did have a fight with 
the people of New York one time about 150 years ago, and it was 
pretty bad, and it was pretty tough.
    So, but when people speak the same language, it seems to me 
that opens up doors, especially with the Internet. And you were 
discussing how the Internet may be playing a positive role. If 
you have people speaking the same language who can confront 
each other over the Internet and confront ideas and also, not 
only confronting ideas, but view alternatives through the 
Internet that they couldn't necessarily talk out among 
themselves, that offers some hope there.
    I am going to ask you some specific questions from my 
knowledge base here. Now, in Srebrenica, Bosnia, that is an 
area of Bosnia that this ethnic cleansing took place. That is 
correct?
    Ms. Howard. Srebrenica?
    Mr. Rohrabacher. Okay. Right. Srebrenica. Got it. I am 
getting the pronunciations here. In Srebrenica, what is the 
population of Srebrenica?
    Ms. Howard. I really don't know at this point, I have to 
say, and it is also difficult to say what it was pre-war 
because what we have to understand is that Srebrenica was a 
protected enclave where refugees and displaced persons from 
other areas have all converged.
    Mr. Rohrabacher. I remember the history, yes.
    Ms. Howard. So it is very difficult. I don't know what the 
current population is.
    Mr. Rohrabacher. Well, we know that thousands of people 
were slaughtered there, and that----
    Ms. Howard. Close to 8,000.
    Mr. Rohrabacher. One of the great crimes against humanity 
happened there.
    But today, it is basically a Serbian area, but you 
mentioned this other area in Serbia that is Bosnian. What is 
the population of that area?
    Ms. Howard. I really would have----
    Mr. Rohrabacher. Okay. Is there some reason why the people 
who are Bosnians who want to be part of Bosnia but live in 
Serbia can't be part of Bosnia, and the Serbians who want to be 
part of Serbia can't be part of Serbia, rather than simply 
trying to create everybody who happens to live within a certain 
boundary has an education that eliminates their ethnic 
identification?
    Ms. Howard. Well, it is a very, of course, complicated 
issue.
    And I think one of the first things that comes to mind is 
that these areas are not ethnically pure. Even when we have a 
majority in a certain area, and this is an issue that I think 
in any discussion on territorial swap between Serbia and Kosovo 
always is brought up, is that these areas that would be 
attached or detached are simply not ethnically pure. And then 
there is the question of what happens to those who are not of 
the majority.
    Mr. Rohrabacher. Well, the only question is whether or not 
the overwhelming number of people in a given area want to be or 
do not want to be part of a government.
    Now I will have to admit that what I am talking about is a 
theory of bringing peace that is not in vogue. And in fact, 
what is in vogue is more of the centralized approach; let's get 
everybody in the EU. Let's try to get--instead of having 
recognition of these ethnic differences, let's try to go in to 
centralization rather than decentralization as a solution.
    And because, in Kosovo and in Serbia, there is also a 
situation where you have got a lot of people on the northern 
side of the river are all Serbs, but they have got to live in 
Kosovo, and there is a valley in Serbia that is made up almost 
all of Kosovars who would rather be in Kosovo.
    And why aren't we pursuing the possibility of eliminating 
conflict by actually having trades in what you call sovereignty 
of a given territory because the people there don't want to be 
part of that country?
    Mr. Serwer. Mr. Rohrabacher, maybe I can try an answer to 
this question.
    Mr. Carnahan. Excuse me, if I may, I am going to ask you to 
make your answer as short as you can because we are short on 
time, and we want to have some time for Mr. Crowley.
    Mr. Serwer. Okay. The short answer is, you end up having to 
move very large numbers of people at very high expense and 
probably having to force people to move.
    And it would really be catastrophic for the region as a 
whole. If this process starts in one place, it will spread and 
unquestionably lead to violence.
    Mr. Rohrabacher. Well, if you are not moving, you are part 
of a country you don't want to be part of, as compared to 
trying to say that the vast majority of people of an area want 
to be part of another country. I mean, this is like, and I will 
have to tell you, when I have Indian representatives here, and 
I respect the Government of India, and I think the Indians 
should be our best friends. And I recognize the challenge that 
they have had in keeping their country together. But there is 
the people of Kashmir may not want to be part of India.
    And I would think the solution to a lot of these problems 
that we have been talking about is actually giving people in an 
area who represent the vast majority of opinion of a given 
area, give them a referendum and let them decide. And then that 
seems to be a way that you are going to calm people down, 
rather than you are saying it is going to make--it is going to 
create such a disruption of the status quo that violence will 
be more likely. I think it may be a disruption to the status 
quo that makes reconciliation and peaceful living much more 
likely.
    So we will see. I mean, that is just an idea to explore 
that I don't think that people have actually looked at.
    Thank you very much, Mr. Chairman.
    Mr. Carnahan. Thank you.
    And next, I want to----
    Mr. Rohrabacher. By the way, Mr. Chairman, one last 
thought. That may go for Northern Ireland, too. It may say that 
there are counties in Northern Ireland that would like to be 
part of greater Ireland rather than part of Great Britain. 
Perhaps if there is a county there that votes that way, maybe 
they should be permitted to go in that direction, too. Just a 
thought.
    Mr. Carnahan. Thank you, Mr. Rohrabacher.
    I want to recognize a member of our full committee for 
joining us on the subcommittee today, Joe Crowley from New 
York, who is also co-chairman of the Ad Hoc Committee on Irish 
Affairs.
    Welcome.
    Mr. Crowley. Thank you, Mr. Chairman.
    Let me thank you from the outset for holding this hearing 
today, both yourself and Mr. Rohrabacher, both friends of mine, 
and I am very pleased that they are both giving this attention 
that I think it deserves on all fronts, but particularly as it 
pertains to the North of Ireland and the progress of peace 
there.
    I am thrilled that we are having this hearing today on the 
peace process that was established earlier this year or 
furthered earlier this year through the Hillsborough Castle 
Agreement.
    It is no secret that the devolution of policing and justice 
was one of the most challenging pieces of the puzzle that has 
yet to be fully completed. And it is a tribute to all those who 
were involved, including, I believe, Secretary Clinton, that 
the agreement came to fruition.
    Most importantly, devolution of policing and justice 
represents a victory for all those who support the peace 
struggle for change and reconciliation in the north.
    I believe that an essential next step forward is to 
establish a strong and binding bill of rights for the North of 
Ireland as envisioned in the Good Friday Agreement and advanced 
by the Saint Andrew Agreement, a bill of rights particular to 
the circumstances of the north, and I would like to go into a 
little bit more of that, would help build on the peace process 
and ensure that a serious return to the past can be avoided.
    I wrote to then Prime Minister Gordon Brown earlier this 
year suggesting exactly this course of action. I believe that 
if leaders backtrack on the Good Friday Agreement's promise of 
a bill of rights for the north, it will send the wrong signal 
to those who have worked so hard to bring an end to violence 
and create a future of peace.
    At the same time, we have more work to continue to do here 
in the U.S. It is essential for the United States to continue 
its commitment to the peace process, and I believe one aspect 
of that is by continued support for the International Fund for 
Ireland. This small targeted investment has been extremely 
helpful in creating on-the-ground conditions for peace, and I 
am glad that the Congress continues to stand by that fund.
    There has been a tendency in some quarters to believe that 
the conflict in the North of Ireland is over. And one only 
needs to look at the violence of this past summer to give pause 
to that belief. We must not waiver in our commitment toward a 
lasting peace for all the people of the North of Ireland.
    With that, I would just direct to Ms. Gilmore, this 
December 10th will mark the second anniversary of the date that 
the Northern Ireland Human Rights Commission gave its 
recommendations for a bill of rights for the north. This move 
was consistent with the Good Friday Agreement, as I mentioned 
before, and then proposed that the bill of rights for the north 
should include rights particular to the circumstances of the 
North of Ireland.
    Can you explain to us what those circumstances are and how 
having enumerated rights enshrined into a bill of rights 
addresses those concerns? If you can also enlighten us with 
what you believe are the reasons that the new British 
Government appears to be backtracking on the commitment to 
establishment of a bill of rights, and if that is so. And what 
role do you see the U.S. playing in this process? And what do 
you believe would be the result of not creating a specific bill 
of rights in the north? And is there strong support for that 
within a broad sector of the society of the North of Ireland?
    I also want to thank Father McManus as well as others who 
were here today applauding the efforts of this subcommittee 
today, and particularly yours, Mr. Carnahan, for having brought 
this hearing up today. Making reference, though, to the fact 
that there is so much embedded in the history between Ireland 
and Great Britain and I think as it pertains to the North of 
Ireland, we know the impact that the British Government had 
when it took some acknowledgment of its past mistakes 
pertaining to the Great Hunger. And I think that that was a 
watershed in terms of opening up a real full discussion and 
understanding of the problems. In that the Pope is now visiting 
the UK, it is bringing back a lot of the issues that I think 
fomented and really caused the divisions within Ireland.
    There is still the critical piece known as the Active 
Settlement of 1701, which really embedded within the British 
constitution much of the hatred that exists within the north 
today. And if you could address that. We are moving on one end, 
without addressing some more substantial or embedded pieces of 
the British constitution. If that is not addressed, is just 
moving toward a bill of rights enough, or do we need to address 
more issues within the British constitution itself?
    Ms. Gilmore. Thank you, Congressman Crowley.
    Thank you for your continued support and interest in 
Northern Ireland. It has been greatly appreciated.
    And to take each of your questions in turn quickly, the 
particular circumstances of Northern Ireland one could look at 
that very narrowly or one could look at it broadly. Narrowly, 
one could try to identify the very, very specific issues that 
divide us. Or one could look at it in terms of how the conflict 
has impacted Northern Ireland? What are the circumstances of 
Northern Ireland that could be related back to the conflict?
    And one then starts to look at issues of inequality and 
deprivation, of the huge impact on the mental health of the 
population of Northern Ireland, with 20 percent of people in 
Northern Ireland with a disability, many of whom acquired that 
disability through getting caught up in trouble in the 
conflict.
    So we believe that to take a very narrow approach and limit 
it to those very narrow things that would have divided people 
is actually going to be more divisive than by drawing us to the 
broader interpretation of the particular circumstances, and 
looking at the things that then could potentially unite people, 
where one would end up with a much more holistic bill of rights 
that everybody can identify with.
    In terms of the reasons why the United Kingdom is 
suggesting that the particular bill of rights for Northern 
Ireland, I would suggest that would be a very good question to 
ask the United Kingdom Government. We are very clear that what 
was required under the agreement was a particular bill of 
rights for Northern Ireland, and indeed, the Irish Government 
has made clear that a specific bill of rights for Northern 
Ireland is required, and it is not appropriate to deal with it 
within the UK context. I think that those are questions that 
need to be asked.
    The role of the U.S. now in terms of shoring up the support 
for a bill of rights, I think, the political support that has 
been shown by the U.S. over the years, both in supporting the 
governments and encouraging the political parties, and this 
links into your fifth question around support.
    There isn't cross-party political support in Northern 
Ireland for a bill of rights, but there is very deep and 
widespread cross-community support. Polling shows upwards of 80 
percent of people from right across communities in Northern 
Ireland support a bill of rights for Northern Ireland.
    It is so rare that we see such high levels of the 
agreement. So the cross-party support really belies the depth 
and breadth of discussions that have taken place across civil 
society and public.
    So I think, as has happened over the years, our political 
parties need to be brought along and coaxed. And I think the 
U.S. has played an extremely important role in doing that, and 
again, in supporting the Irish Government and putting pressure 
on the UK Government to deliver.
    In relation to the British constitutional issues, the Good 
Friday Agreement in some ways was Northern Ireland's 
constitutional document, and it was our way of trying to deal 
with some of those constitutional issues. And really, I suppose 
that where things are going to go in relation to that matter is 
not something I am particularly qualified to speak about. I 
would say, though, that a Bill of Rights actually would play a 
very important role in terms of trying to constitutionalize 
some of the rights that would prevail whether one was part of 
the United Kingdom or whether one was part of the Republic of 
Ireland or whether one just sees oneself as Northern Irish, 
that sets out rights that apply in terms of your humanity. I 
think it is very important to protect those rights no matter 
what the constitutional settlement may be. So I hope that 
answers some of your questions.
    Mr. Crowley. It does.
    If I could, I know time is of the essence, but I think it 
is also important to doubt note that the Scots-Irish tradition 
here in the United States take great credit and rightfully so 
for the establishment of the bill of rights in this country. So 
it is no wonder to me that people, aside from party 
affiliation, people themselves within Northern Ireland 
understand the rights that they all have, divine rights as 
embedded in their own constitution. It is no surprise to me.
    So that is a very welcomed response to the question. I 
appreciate that very much.
    Again, Mr. Chairman, thank you for holding this hearing. 
And I agree, there is a greater role that we must continue to 
play, especially I believe hearing from the Scots-Irish 
tradition here in this country who helped establish our own 
bill of rights expressing that support for the people of 
Northern Ireland as well. So thank you.
    Mr. Carnahan. Thank you, Congressman Crowley.
    And I just want to wrap up real quickly a couple of things. 
And I promised I would follow up on Mr. Ellison's question 
about the role of the Irish Americans here in terms of 
supporting the process, and obviously, they have been very 
engaged in different organizations and speaking out.
    And the other--I will hit these quickly--the response and 
engagement of the younger generation of people in Northern 
Ireland that may not have lived through some of the worst of 
the conflict, how they have engaged in this. And finally, 
really, the role of women that were so critical in bringing the 
Good Friday Agreements together and their ongoing role in these 
efforts.
    Ms. Gilmore. Thank you, Mr. Chair.
    Those are two very excellent questions.
    When I was listening to the answer in relation to young 
people in Bosnia, I was struck by some of the parallels 
because, of course, many young people in Northern Ireland did 
not live through our conflict. But what we are seeing with them 
is the transgenerational impact of the conflict.
    I think the government's own statistics show that one in 
five young people will present with mental health problems by 
the time they are 18, and those are young people who have grown 
up in families that have been deeply impacted by the conflict. 
So while these young people may not have lived through the 
conflict, they are very much feeling it in their families and 
in their communities. And yet mental health resources are not 
targeted directly at those communities.
    I think it is interesting to note that in the recent 
violence and public disorder that we have seen, that many young 
people have been involved in it, and indeed, many young people 
have been injured. There were two young people quite seriously 
injured by plastic bullets being shot by the police during 
public disorder over the summer.
    I would just link that back to my earlier point on the need 
to invest in those communities and the need to invest 
particularly in young people because if they are feeling left 
behind and their communities are not addressed, one can see 
then how they would be open for persuasion and manipulation, 
for want of a better word, by those who would seek to stir up 
discontent and disorder on the streets.
    So I think if young people don't feel listened to and don't 
feel included and don't feel part of the peace process, even 
though they weren't part of the conflict, there is a danger 
that they will go back to conflict. And I think that is 
something we need to be very careful about.
    In relation to the role of women, the women's sector is a 
very vibrant sector in Northern Ireland. I think what is 
probably most problematic in relation to women in Northern 
Ireland is the lack or the serious under representation of 
women in public life. And actually, our Good Friday Agreement 
particularly stipulated the inclusion of women in public life. 
And we, across the United Kingdom, have the lowest percentage 
and the lowest statistics of involvement of women in, for 
example, our local councils and in government. And in senior 
positions in our civil service and in the administration, there 
is a very serious under representation of women. So women are 
still very involved at civil society level, but they haven't 
got through to the sort of higher levels.
    I believe the commitments that were made in the agreement 
in relation to increasing the participation of women in public 
life very much remain to be fulfilled. I think there is an onus 
on our assembly and our executive and our elected politicians 
to take more active steps to increase the participation of 
women in society in Northern Ireland.
    Mr. Carnahan. Thank you all very much.
    I am afraid I am going to have to wrap it up. We have about 
3 minutes left on the clock, so I am going to have to walk 
quickly across the street.
    But just special thanks to our panel today. I think they 
really gave us some very keen insights into how we can stay 
focused and stay committed with the efforts and the progress 
that has been made, but also I think a very realistic view on 
some of the challenges that remain.
    Thank you very much. We are going to stand adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Material submitted for the record by the Honorable Russ Carnahan, a 
 Representative in Congress from the State of Missouri, and Chairman, 
Subcommittee on International Organizations, Human Rights and Oversight

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
